   April 29, 2004




Logistics
Accountability and Control of
Materiel at the Marine Corps
Logistics Base Albany, Georgia
(D-2004-077)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ADUSD(MPP&R)          Assistant Deputy Under Secretary of Defense (Maintenance
                         Policy, Programs, and Resources)
DLA                   Defense Logistics Agency
IMM                   Integrated Materiel Manager
MCLB                  Marine Corps Logistics Base
NIMMS                 Naval Industrial Material Management System
          Office of the Inspector General of the Department of Defense
Report No. D-2004-077                                                      April 29, 2004
   (Project No. D2003LH-0144)

                   Accountability and Control of Materiel at the
                          Marine Corps Logistics Base
                                 Albany, Georgia

                                Executive Summary

Who Should Read This Report and Why? DoD personnel who are involved in
materiel management should read this report. The report discusses compliance with
policies and procedures used to account for and control materiel at the Marine Corps
Logistics Base (MCLB) Albany, Georgia.

Background. This is the eighth and final in a series of reports the Inspector General of
the Department of Defense is issuing that discusses accountability and control of materiel
at DoD maintenance depots. The Assistant Deputy Under Secretary of Defense
(Maintenance Policy, Programs, and Resources) requested that we include Albany in this
series. The Marine Corps maintenance budget for FY 2003 was about $261.3 million.
The value of inventory at MCLB Albany was about $26 million, according to depot
inventory records dated September 29, 2003.

Depot maintenance facilities need an effective inventory control system to ensure that an
adequate supply of materiel is on hand to maintain efficient levels of operation and to
meet the demands of customers. An effective system is also important to identify
defective and obsolete goods; prevent loss through damage, pilferage, or waste; and
ensure the accuracy of inventory records. Through inventory control, materiel not
needed for current requirements at a depot can be identified and made available for
redistribution to meet other known requirements.

Results. MCLB Albany maintained about $8.3 million worth of materiel that exceeded
requirements. In addition, 8.5 percent of the inventory records at MCLB had errors.
Materiel not properly accounted for and materiel stored for long periods of time lose their
visibility and can become lost, obsolete, stolen, or unserviceable and proper management
decisions on the use of that materiel can be hampered. Increased management controls
over maintenance materiel will improve the accuracy of the MCLB Albany inventory,
reduce excess materiel, and correct material management control weaknesses identified
in this report. (See the Finding section for the detailed recommendations.)

Management Comments and Audit Response. The Deputy Assistant Secretary of the
Navy (Logistics) concurred with the audit finding and recommendations. He also stated
that MCLB Albany changed the parameter for determining excess materiel. Historically,
items that had no demand for 1 year were considered excess. Because of the workload
requirements generated by Operation Iraqi Freedom, some of those items are now
needed. Therefore, MCLB Albany changed the parameter for determining excess
materiel from 1 year with no demand to 3 years. Excess materiel using the revised
parameter is valued at $4.08 million. We concur with the rationale for changing the
parameter. However, we believe that at the cessation of hostilities in Iraq, MCLB
Albany should revert back to the 1 year parameter for determining excess materiel.
Doing so would preclude the accumulation of unneeded materiel and contribute to
efficient inventory management. Other actions being taken by MCLB Albany, including
the implementation of enhanced management controls, are responsive to the
recommendations. See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.




                                          ii
Table of Contents

Executive Summary                                                        i

Background                                                              1

Objectives                                                              2

Other Matters of Interest                                               2

Finding
     Management of Materiel at the Marine Corps Logistics Base Albany   4

Appendixes
     A. Scope and Methodology                                            8
          Management Control Program Review                              9
     B. Prior Coverage                                                  11
     C. Report Distribution                                             12

Management Comments
     Department of the Navy                                             15
Background
    This is the eighth and final report in a series discussing accountability and control
    of materiel at DoD maintenance depots. The Assistant Deputy Under Secretary of
    Defense (Maintenance Policy, Programs, and Resources) (ADUSD[MPP&R])
    requested us to include Marine Corps Logistics Base (MCLB) Albany in this
    series. The Marine Corps maintenance budget for FY 2003 was about
    $261.3 million.

    Marine Corps Logistics Base Albany. MCLB Albany is one of two Marine
    Corps maintenance depots. The value of the materiel inventory at MCLB Albany
    was about $26 million, according to depot inventory records dated September 29,
    2003. The MCLB Albany mission is to repair, rebuild, and modify all types of
    Marine Corps ground combat equipment, combat support equipment, and combat
    service support equipment. Systems that MCLB Albany supports include the
    amphibious assault vehicle (AAV), the light armored vehicle (LAV), the armored
    combat earthmover (M9 ACE), the M88 recovery vehicle, and the Abrams tank
    (M1A1).

    Inventory Control. Inventory control is defined as the control of materiel by
    accounting and physical controls. Accounting control involves proper recording
    and reporting of inventories. Physical control is the incorporation of adequate
    safeguards for receiving, storing, handling, and issuing materiel. A physical
    inventory tests the accounting and physical controls by validating an item’s
    storage location and materiel count.

    Inventory control is needed to ensure that an adequate supply of materiel is on
    hand to maintain efficient levels of operation and to meet the demands of
    customers. Effective inventory control is also essential in disclosing defective
    and obsolete goods; preventing loss through damage, pilferage, or waste; ensuring
    inventory accuracy; and identifying materiel not needed for current requirements
    so that materiel can be made available for redistribution to meet other known
    requirements.
    Naval Industrial Material Management System. MCLB Albany maintenance
    officials stated that materiel at the maintenance center is managed by the Naval
    Industrial Material Management System (NIMMS). NIMMS is a standardized
    automated inventory control system that provides information on depot materiel
    operations. NIMMS encompasses the requisitioning, receipt, storage, issuance,
    inventory, reconciliation, and inventory accounting necessary to fulfill the
    requirements of depot-level industrial management.
    Materiel Returns Program. Materiel that is considered to be excess can be
    offered to the Defense Logistics Agency (DLA) for turn-in through the Materiel
    Returns Program. Procedures and policies for processing excess materiel through
    the program are defined in volume II, part 1 of DLA Manual 4140.2 chapter 40,
    “Materiel Returns Program,” April 1, 2002. To process an item through the
    program, the owner of the materiel must prepare and submit a Customer Excess
    Report to DLA.



                                          1
     The DLA item manager will inform the customer whether DLA will accept the
     item and the amount of credit that will be given. The customer can receive full
     credit, partial credit, or no credit.


Objectives
     Our overall audit objective was to evaluate the effectiveness of policies and
     procedures used to account for and control materiel at MCLB Albany. We also
     reviewed the management control program as it related to the overall objective.
     In addition to our review of materiel accountability, the ADUSD(MPP&R)
     requested us to review the implementation of the Lean Program at Albany. See
     Appendix A for a discussion of the scope and methodology and our review of the
     management control program. See Appendix B for prior audit coverage related to
     the overall objective.


Other Matters of Interest
     The ADUSD(MPP&R) requested us to include MCLB Albany in this series on
     inventory control and to review the benefits reported by MCLB Albany that
     resulted from the implementation of the Lean Program. The overall objective of
     the Lean Program is to provide more efficient logistics support to production.
     That was accomplished by streamlining the flow of repair parts to the production
     shops, removing excess parts from the production floor, and reorganizing the shop
     area in the maintenance center. In addition to Lean thinking, the MCLB Albany
     maintenance center also implemented the Theory of Constraints initiative on the
     production lines. Management personnel at the MCLB Albany maintenance
     center provided us a briefing on the implementation and results realized from
     implementing the Lean Program and the Theory of Constraints initiative.
     Benefits that were realized by implementing them included:

            •   saving hundreds of labor hours associated with cable testing and
                repair;

            •   turning in excess tools, valued at over $200,000, for redistribution;

            •   streamlining the work process flows in the production center;

            •   meeting or exceeding the production schedule on all production lines
                that implemented the Theory of Constraints;

            •   decreasing the repair cycle time and work-in-process inventories by up
                to 50 percent; and

            •   decreasing production costs (the cost per vehicle to overhaul the
                MK-48 decreased from $152,000 in FY 2000 to $127,000 in
                FY 2003).



                                          2
MCLB Albany provided us with an audit report that was prepared by an independent
certified public accountant. The report verified the benefits reported by MCLB Albany.
We met with officials of the Office of the ADUSD(MPP&R) and provided them with a
copy of the audit report. The audit report satisfied their request.




                                           3
                 Management of Materiel at the Marine
                 Corps Logistics Base Albany
                 Materiel stored by MCLB Albany exceeded known requirements. Excess
                 material accumulated at MCLB Albany because maintenance center
                 personnel wanted to avoid the negative impact of writing off the value of
                 excess inventory on financial statements. As a result, MCLB Albany had
                 approximately $8.3 million worth of materiel on hand in excess of known
                 requirements.* In addition, 8.5 percent of the inventory records at MCLB
                 Albany had errors. Materiel not properly accounted for and materiel
                 stored for long periods of time lose their visibility and can become lost,
                 obsolete, stolen, or unserviceable and proper management decisions on the
                 use of that materiel can be hampered.


Guidance on Managing Maintenance Materiel
        DoD Regulation 4140.1-R, “DoD Materiel Management Regulation,” May 1998,
        provides policies for DoD Components regarding management of materiel. The
        regulation states that the DoD Component that has physical custody of materiel is
        responsible for the care and safeguarding of the materiel and shall maintain
        quantitative balance records. The DoD Components are also required to conduct
        annual physical inventories and to take appropriate actions to ensure that actual
        on-hand quantity and property records agree.

        DoD Manual 4000.25-2-M, “Military Standard Transaction Reporting and
        Accounting Procedures,” September 2001, provides procedures, performance
        objectives, and reporting requirements for maintaining accurate records of the
        physical inventory, conducting physical inventories, and reconciling record
        discrepancies.

        Marine Corps Order P4400.151B, “Intermediate-Level Supply Management
        Policy Manual,” July 9, 1992, provides policy guidance concerning intermediate-
        level supply management. The Order states that assets above the authorized
        retention levels will be declared excess via the Materiel Returns Program to the
        appropriate integrated materiel manager (IMM) for disposition instructions.
        Assets directed for return, either creditable or noncreditable, will be returned to
        the IMM. Disposal is authorized when the IMM indicates the materiel is not
        returnable.

        Marine Corps Order P4400.150E, “Consumer-Level Supply Policy Manual,”
        June 21, 1999, provides policy for consumer-level supply activities. The Order
        states that consumer-level supply accounts are not authorized to retain excess
        materiel.


* In response to a draft of this report, management stated that MCLB Albany had changed the parameter
  for determining excess materiel, which decreased the amount of materiel considered to be excess (see the
  discussion of management comments at the end of this finding).



                                                    4
Excess Materiel
    Materiel stored at the MCLB Albany maintenance center exceeded requirements.
    Inventory records at MCLB Albany showed about $26 million worth of materiel
    stored in 34,090 storage records. About $8.3 million (32 percent) of that materiel
    was considered to be in excess by MCLB Albany. The excess materiel
    accumulated at MCLB Albany because maintenance center personnel wanted to
    avoid the negative impact of writing off the value of excess inventory on financial
    statements.

    Determining Excess Materiel. MCLB Albany considers materiel to be in excess
    when an item has not been issued from the warehouse to production during the
    previous four quarters (365 days). When materiel is determined to be in excess,
    its storage record is changed to store code PX in NIMMS. Using the PX code
    makes the materiel visible to other depots that may have a requirement for the
    materiel. Materiel coded PX remains on the MCLB Albany accountable records
    until turned in to the supply system, redistributed to another maintenance depot,
    or disposed of.

    Some of the PX-coded materiel at MCLB Albany had been inactive for several
    years, with no known requirements. For example, MCLB Albany had 38
    switches on hand with a unit cost of $163.68. The value of the excess inventory
    was $6,219.84. The IMM for the switches stated that he had not purchased the
    item since 1998. MCLB Albany also had some PX-coded items on hand that were
    still being procured by DLA. For example, MCLB Albany had six motors
    (National Stock Number 4320-01-137-6293), valued at $3,420.54. Motors had
    been purchased by the IMM as recently as September 2003. Materiel that has
    been inactive for extended periods and identified as excess should be either
    transferred to ongoing programs, if needed, or turned in for disposal.

    Disposition of Excess Materiel. Excess materiel that is turned to the Materiel
    Returns Program can have an adverse effect on financial statements if full credit
    is not received for the materiel. In FY 2002, for example, MCLB Albany offered
    about $947,000 worth of materiel to the Materiel Returns Program and received
    only $82,000 credit. Therefore, MCLB Albany had a loss of $865,000, or
    91 percent of the value of the materiel that was turned in. In FY 2003, to
    minimize the adverse effect on the financial statements, officials at MCLB
    Albany stated that they did not offer all of their excess materiel to the Materiel
    Returns Program.
    Officials at MCLB Albany stated that they did not take any action to turn in or
    dispose of excess materiel during FY 2003 because of Operation Iraqi Freedom.
    The officials stated they held materiel in anticipation of the possibility that
    equipment which had not undergone depot maintenance for a number of years
    would be sent to Albany for repair and the materiel would be required to repair
    the equipment.




                                         5
Inventory Accuracy
     Accuracy of Inventory Records. The inventory records for materiel stored at
     MCLB Albany were inaccurate. We conducted a physical inventory of a
     statistically selected sample of 418 items out of a universe of 34,090. The sample
     was based on records in NIMMS. See Appendix A for details on the sample and
     universe.

     We compared the results of our physical inventory with quantities in the NIMMS
     inventory records and found 33 errors of the inventory records in our sample size
     of 418. By applying statistical weighting to the sample, we project the number of
     errors in the universe of 34,090 records to be about 2,901 (8.5 percent).
     However, a significant number of those errors were in low-dollar items (items
     with an aggregate cost of $50 or less). If the low-dollar records are excluded
     from the universe, the error rate would be reduced to about 5.2 percent.

     Inventory Verification. According to MCLB Albany officials, items are
     selected for physical inventory based on warehouse activity, such as a receipt into
     storage or an issue to production. As a result, items with infrequent activity, such
     as PX-coded stock, are not validated. Items with infrequent activity are still
     Government property and subject to the same controls as materiel routinely used
     for production. MCLB Albany should expand its physical inventories to include
     items with infrequent activity in order to increase accountability and reduce the
     vulnerability of materiel to undetected pilferage.


Potential Monetary Benefits
     The audit identified excess materiel, valued at about $8.3 million, at MCLB
     Albany that could be turned in for up to $8.3 million in credit. The exact amount
     cannot be determined until MCLB Albany determines whether the excess materiel
     can be used to satisfy other requirements.


Conclusion
     MCLB Albany did not effectively manage materiel identified as being in excess.
     Although MCLB Albany performs timely reviews to identify excess materiel,
     MCLB Albany should increase its effort to dispose of excess materiel. In
     addition, MCLB Albany should expand its inventory verification to include all
     inventory items, with emphasis on high-dollar items. Materiel not properly
     accounted for and materiel stored for long periods of time lose their visibility and
     can become lost, obsolete, stolen, or unserviceable and proper management
     decisions on the use of that materiel can be hampered.




                                          6
Recommendations, Management Comments, and Audit
  Response
    We recommend that the Commanding General, Marine Corps Logistics
    Command:

          1. Identify all excess materiel and return the materiel to the supply
    system, as required by Marine Corps Order P4400.151B,
    “Intermediate-Level Supply Management Policy Manual,” July 9, 1992.

    Management Comments. The Deputy Assistant Secretary of the Navy
    (Logistics) provided comments on behalf of the Marine Corps Logistic Command
    and concurred with the recommendation. However, he also stated that MCLB
    Albany changed the parameter for determining excess materiel. Historically,
    materiel for which there was no demand within the previous year was considered
    excess. Because of the increased workload resulting from Operation Iraqi
    Freedom, this materiel was now being required to repair assets returned from Iraq.
    As a result, MCLB Albany changed the parameter for determining excess
    materiel from 1 year with no demand to 3 years. Excess materiel using the
    revised parameter is valued at $4.08 million. MCLB Albany’s review of that
    materiel is projected to be completed by July 2004. In addition, the Deputy
    Assistant Secretary stated that enhanced management controls at MCLB Albany
    would be implemented by March 31, 2004.

    Audit Response. We concur with the rationale for changing the parameter used
    to determine excess materiel. However, we believe that during normal
    operations, 3 years is too long to stock an item before determining it to be excess.
    Therefore, at the cessation of hostilities in Iraq, the parameter should be reverted
    back to 1 year. Doing so would reduce the accumulation of unneeded materiel
    and contribute to more efficient inventory management. We consider MCLB
    Albany’s reported actions to be responsive.

          2. Perform physical inventories of all materiel in all storage locations
    and adjust inventory records accordingly.

    Management Comments. Management concurred and stated that the
    recommendation was implemented in February 2004.




                                         7
Appendix A. Scope and Methodology
   We performed the audit at MCLB Albany. We contacted personnel at Marine
   Corps headquarters and personnel involved in the maintenance operation at
   MCLB Albany. We reviewed DoD and Marine Corps regulations regarding
   policies, responsibilities, and procedures for managing maintenance materiel at
   Marine Corps logistics bases, dated from July 1992 through September 2001. We
   focused on accountability and control of repair parts and consumable materiel.
   Our audit focused primarily on information from inventory records dated
   September 29, 2003. Those records showed that MCLB Albany had inventory
   valued at about $26 million.

   To determine whether repair parts and consumable materiel were accurately
   accounted for and controlled, we selected a statistical sample of inventory records
   for materiel on hand at MCLB Albany and conducted a physical inventory of the
   items in our sample. We used inventory records from NIMMS dated
   September 29, 2003, to identify the universe of 34,090 MCLB Albany inventory
   records, from which we statistically selected a sample of 418 records. We
   performed the physical inventory from October 2 through October 7, 2003. We
   attempted to reconcile discrepancies between our physical inventory and NIMMS
   records by reviewing all inventory transactions that occurred between
   September 29, 2003, and the date of our physical inventory. The audit was
   performed from July 2003 through January 2004 in accordance with generally
   accepted government auditing standards.

   Use of Computer-Processed Data. We relied on computer-processed data from
   NIMMS for determining the accuracy of inventory records. Our comparison of
   NIMMS records with physical inventory counts casts doubt on the data’s validity.
   However, the differences are not significant enough to effect the opinions,
   conclusions, and recommendations in this report.

   Sample Results. We used a stratified random sample design based on the unit
   price, the extended dollar value (quantity multiplied by unit price) of the
   inventory record, or both. We randomly selected records from each stratum. We
   stratified the inventory records based on the following criteria.

          •   Stratum 1: Materiel with a unit price of $0 or with a negative quantity.

          •   Stratum 2: Materiel with a unit price greater than $2,500.

          •   Stratum 3: Materiel with an extended value equal to or less than $50
              but greater than $0.

          •   Stratum 4: Materiel with an extended value equal to or less than $500
              but greater than $50.

          •   Stratum 5: Materiel with an extended value equal to or less than
              $1,500 but greater than $500.




                                        8
           •   Stratum 6: Materiel with a unit price less than or equal to $2,500 and
               materiel with an extended value greater than $1,500.

    The following table shows the universe and sample by stratum.

                                  Universe and Sample

                                                  Number of Records

                   Stratum                     Universe           Sample

                      1                            8                 8
                      2                          190               100
                      3                       12,810                50
                      4                       14,193                50
                      5                        4,184                60
                      6                        2,705               150

                   Total                      34,090               418

    Sample Results. Using the stratified sample design, we calculated statistical
    projections of the inventory count errors. We then projected overstated and
    understated values for the inventories.

    Based on the sample results, using a 90 percent confidence level, we project that
    between 1,337 and 4,466 of the 34,090 records have count errors; 2,901 is the
    point estimate. We further project with 90 percent confidence that the value of
    overstated materiel is in the range of $102,197 to $448,567; $275,382 is the point
    estimate. We project with 90 percent confidence that the value of understated
    materiel is in the range of $65,833 to $290,715; $178,274 is the point estimate.

    Use of Technical Assistance. Research analysts from the Quantitative Methods
    Division of the Office of the Inspector General of the Department of Defense
    provided assistance in designing the statistical sampling plan for selecting
    inventory records for review and in projecting the results.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Inventory Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.




                                         9
Scope of the Review of the Management Control Program. At the MCLB
Albany maintenance center, we reviewed the adequacy of management controls
for storage and disposition of maintenance materiel. We also reviewed the
adequacy of management’s self-evaluation of those controls.

Adequacy of Management Controls. We identified material management
control weaknesses for MCLB Albany, as defined by DoD Instruction 5010.40.
MCLB Albany management controls for managing depot maintenance materiel
were not adequate because managers stored excess materiel for long periods and
failed to maintain accurate inventory records. Recommendation 1., if
implemented, will correct the identified weaknesses and could result in materiel,
valued at about $8.3 million, being available to meet other requirements. A copy
of the report will be provided to the senior official responsible for management
controls in the Marine Corps.
Adequacy of Management’s Self-Evaluation. MCLB Albany maintenance
center officials did not identify management of maintenance materiel as an
assessable unit and, therefore, did not identify or report the material management
control weaknesses identified by this audit.




                                    10
Appendix B. Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) has issued seven reports that discuss management of repair parts.
    Unrestricted IG DoD reports can be accessed over the Internet at
    http://www.dodig.osd.mil/audit/reports.


IG DoD
    IG DoD Report No. D-2003-130, “Accountability and Control of Materiel at the
    Ogden Air Logistics Center,” September 5, 2003

    IG DoD Report No. D-2003-064, “Accountability and Control of Materiel at the
    Warner Robins Air Logistics Center,” March 20, 2003

    IG DoD Report No. D-2003-057, “Accountability and Control of Materiel at the
    Naval Air Depot, Jacksonville,” March 5, 2003

    IG DoD Report No. D-2003-033, “Accountability and Control of Materiel at the
    Naval Air Depot, North Island,” December 6, 2002

    IG DoD Report No. D-2002-091, “Accountability and Control of Materiel at the
    Corpus Christi Army Depot,” May 21, 2002

    IG DoD Report No. D-2002-003, “Accountability and Control of Materiel at the
    Tobyhanna Army Depot,” October 4, 2001

    IG DoD Report No. D-2001-186, “Accountability and Control of Materiel at the
    Tobyhanna Army Depot – Stockage of Communications-Electronics Materiel,”
    September 21, 2001




                                       11
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
     Assistant Deputy Under Secretary of Defense (Maintenance Policy, Programs, and
     Resources)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Commandant of the Marine Corps
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commanding General, Marine Corps Logistics Command
  Commander, Marine Corps Logistics Base Albany

Department of the Air Force
Auditor General, Department of the Air Force

Unified Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Logistics Agency




                                          12
Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform`
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        13
Department of the Navy Comments




                    15
16
     Final Report
      Reference




     Revised




17
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Readiness and Logistics Support Directorate prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.
Shelton R. Young
Dennis E. Payne
Marc E. Avers
Bernard M. Baranosky
Gregory S. Fulford
Travis R. Schenck
Brantley Thomas
Henry D. Barton
Kandasamy Selvavel
Elizabeth N. Shifflett
